NO.

IN THE
SUPREME COURT OF THE UNITED STATES

UNITED STATES OF AMERICA
Respondent,
v.
JAMES FELTON
Petitioner.
MOTION FOR LEAVE TO PROCEED IN FORMA PA UPERIS
The Petitioner asks for leave to file the attached petition for a writ of certiorari without
payment of costs and to proceed in forma pauperis.
Undersigned counsel was appointed by the United States Court of Appeals for the Second
Circuit pursuant to the Criminal Justice Act, 18 U.S.C. 3006A, as counsel for Petitioner James
Felton for the purpose of pursuing his appeal in the Second Circuit and beyond, as set forth on the
attached Notice of Appointment.

Date: September 21, 2021
De~`in McLaughlin, Esq. ~`-----CJA Counsel for Petitioner
Langrock Spert•y &Wool, LLP
P.O. Drawer 351
Middlebury, V t 05753
(802) 388-6356

Case 19-,

2, Document 90, 01/29/2D21, 3025E

, Page1 of 1

UNITED STATES ~QURT QF APPEALS
FOR THE
SECQND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
29th day of January, two thousand twenty-one.

United States of America,
1'1
Appellee,
Docket No. 19-3352
v.
James Diaz, et al.,
Defendants,

James Felton,
Defendant -Appellant.

IT IS HEREBY ORDERED that Devin McLaughlin, Esq., Langrock Sperry &Wool,
LLP, 111 South Pleasant Street, P.O. Drawer 351, Middlebury, VT 05753 is assigned as counsel
for the Appellant pursuant to the Criminal Justice Act, 18 U.S.C. § 3006A. Attorney
McLaughlin is directed to file a renewed Oral Argument Statement within 30 days of the date of
this order.
For the Court:
Catherine O'Hagan Wolfe,
Clerk of Court
~,

SECOND
~~ T

y

~ /,
~V ~~

